No.

 

 

IN THE

Supreme Court of the United States

 

STATE OF TENNESSEE, BY AND THROUGH THE TENNESSEE GENERAL ASSEMBLY, ET AL.,

Petitioners,
v.

UNITED STATES DEPARTMENT OF STATE, ET AL.,

Respondents.

 

PROOF OF SERVICE

 

JOHN J. BURSCH

Counsel of Record
BurscH Law PLLC
9339 Cherry Valley Ave SE, #78
Caledonia, Michigan 49319
(616) 450-4235
bursch@burschlaw.com

Counsel for Petitioners

 

 
1
The undersigned certifies that on December 19, 2019, he served an

Application to the Honorable Sonia Sotomayor for an Extension of Time Within
Which to File a Petition for a Writ of Certiorari to the United States Court of
Appeals for the Sixth Circuit, by mailing same in an envelope bearing postage fully
prepaid, plainly addressed as follows:

Samantha L. Chaifetz

United States Department of Justice

Civil Division, Appellate Staff

Room 7248

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

 
